                STATEMENT OF J. RUSSELL GEORGE
                      INSPECTOR GENERAL
      TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
            BEFORE THE SENATE FINANCE COMMITTEE
                          MAY 25, 2005

Chairman Grassley, Senator Baucus, Members of the Committee, thank you for
the opportunity to discuss a report that my office is releasing today regarding the
Internal Revenue Service’s administration of certain employment tax laws.

The objective of our report was to determine whether the existing tax laws, tax
regulations, and IRS policies and practices ensure fairness in the administration
of self-employment tax laws for similarly situated taxpayers. We compared the
employment tax liabilities of sole proprietors to the employment tax liabilities of
single-shareholder S corporations. Our report found that employment tax
inequities exist between sole proprietorships and single-shareholder S
corporations.

These inequities have historical underpinnings. In 1958, Congress established
Subchapter S of the Internal Revenue Code, which enabled small businesses,
including sole proprietorships, to form corporations owned by 10 or fewer
shareholders. Electing S corporation status exempts profits from corporate
taxation and allows profits to “pass through” to the shareholders. Shareholders
are then responsible for paying individual income taxes on the profits received.
In addition, shareholders who actively operate the business are subject to
employment taxes on the compensation received for their services.

The IRS developed its methodology for dealing with the employment taxes of S
corporations in 1959. This methodology does not properly address how today’s
S corporations are structured because the 1959 methodology is based on the
assumption that S corporations will have multiple shareholders or owners. In a
multiple shareholder environment, a consensus of shareholders typically set the
salary of the business operator at a level reflecting the market value of the
operator’s services.

However, in Tax Year 2000, 78.9 percent of all S corporations were either fully
owned by a single shareholder, or more than 50 percent owned by a single
shareholder. Therefore, in nearly 80 percent of S corporations, the individual
who owns the business determines the amount of the salary paid to the
shareholder operating the business.

The decision by the single shareholder of an S corporation of what amount to pay
himself or herself in salary has tax consequences. A lower salary results in lower
employment taxes and higher profits. In comparison, sole proprietorships are
treated much differently for the purposes of employment taxes.


                                                                                      1
Employment taxes are authorized by the Federal Insurance Contributions Act, or
FICA, and the Self-Employment Contributions Act, or SECA. FICA applies to S
corporations, and SECA applies to sole proprietors. Under FICA, S corporations
are required to withhold taxes from the wages of employees, with matching
amounts paid by the employers. In comparison, under SECA, sole proprietors
must pay taxes on profits from the operation of their businesses. The self-
employment tax law treats all profits (except for an amount equal to the employer
portion of FICA) as if they were wages. As a result, the sole proprietor pays the
equivalent of both the employer and employee portions of FICA on business
profits.

The different tax treatment has caused the S corporation form of ownership to
become a multibillion dollar employment tax loophole for single-shareholder
businesses. For example, as shown in this first chart, in Tax Year 2000, the
owners of 36,000 single-shareholder S corporations received no salaries at all
from their corporations, even though the operating profits of each of these
corporations exceeded $100,000. This resulted in employment taxes not being
paid on $13.2 billion in profits.

A 2001 tax court case provides a textbook example of the type of S corporation
shareholder I am referring to. A veterinarian was the sole shareholder in his S
corporation. His corporation produced over $400,000 in total profits over three
years. Yet, during these three years, he declared no salary for himself, despite
the fact that his corporation’s sole source of income was from his services. In
court, the IRS prevailed. The tax court agreed that the corporation’s profits
should be subject to employment taxes.

Determining what is reasonable compensation to pay a business officer is
complex and subjective, and the IRS must sometimes engage in litigation. Since
the IRS is forced to address the issue of reasonable officer compensation on a
case-by-case basis, many owners of S corporations have apparently determined
that saving employment taxes by minimizing salaries is worth the risk of an IRS
examination. As shown in the next chart, single-shareholder S corporations vary
widely in the amount of salary they give themselves. At the top of the chart, you
can see that many are willing to set their salaries at $0 to maximize their
employment tax savings.

Furthermore, the owners of single-shareholder S corporations have been setting
their salaries at a decreasing percentage of corporate profits in the past several
years. As shown in this third chart, in Tax Year 1994, these shareholders paid
themselves salaries subject to employment taxes equal to 47.1 percent of their
profits. This percentage fell to 41.5 percent by Tax Year 2001. In comparison,
sole proprietors pay employment taxes on all their operating profits.




                                                                                   2
The employment tax consequences of these single-shareholder S corporations
paying themselves little or no salaries are in the billions of dollars. My final chart
compares the actual FICA taxation of single-owner S corporations to the
theoretical SECA taxation that would have been paid if these profits were taxed
as a sole proprietorship. In Tax Year 2000 alone, S corporations paid $5.7 billion
less in employment taxes than would have been paid if the taxpayers were sole
proprietors.

Billions of dollars in Social Security and Medicare taxes are being avoided by
single-shareholder and majority-owned S corporations. Trends indicate that the
employment tax base is eroding. In fact, advising small businesses to save on
employment taxes by forming S corporations has become a cottage industry. A
search of the Internet yields many sites that advise entrepreneurs that they can
save thousands of dollars a year in employment taxes simply by incorporating.

The Joint Committee on Taxation shares my concern about the employment tax
treatment of pass-through entities – such as S corporations – and has
recommended changes to their taxation. Additionally, the Joint Committee
outlined five general principles for improving compliance and reducing the tax
gap in testimony before this Committee last month. The employment tax
treatment of owners of pass-through entities was included as one example of
how compliance is hampered when tax outcomes are dependent on difficult
factual determinations.

Mr. Chairman and members of the committee, I appreciate the opportunity to
discuss this important issue. I look forward to working with the IRS to identify
and recommend solutions to this problem. I will be happy to answer any
questions you have at the appropriate time.




                                                                                     3
Operating Profits of S Corporations That Paid No
Salaries to the Sole Owners (Tax Year 2000)


                          Single-Shareholder S Corporations With Profits
                          Profits Sheltered From Employment Taxes
 Thousands
                                                                                     $Billions
    300                                                                                 $14
                                                                             $13.2
    250                                                                                 $12

                                                                                        $10
    200
                                                                                        $8
    150
                                                                                        $6
    100
                                                                                        $4
      50                                                                                $2
                                                                        36,000
       0                                                                                $0
           UNDER $25,000        $25,000 TO         $50,000 TO       $100,000 AND
                                  $49,999            $99,999            OVER
                    Profit Range for Ow ners Selecting Salary of $0

Source: TIGTA analysis of IRS Master File Data. These data reflect the impact of S corporation
spousal ownership but not majority ownership.




                                                                                                 4
    Variations in Salaries Selected by Owners of Single-
        Shareholder S Corporations (Tax Year 2000)

     PERCENTAGE OF TOTAL SINGLE-SHAREHOLDER S CORPORATIONS                                       PERCENTAGE OF TOTAL PROFITS

                                                                0%   5%   10%   15%        20%      25%       30%       35%

                                                                                                                    435,000
                                                           NONE
                                                                                 $21.3 Billion

                                                         1 to 9 %
     PERCENTAGE OF PROFITS DECLARED AS SALARY (TY 20




                                                       10 to 19 %


                                                       20 to 29%


                                                       30 to 39%


                                                       40 to 49%


                                                       50 to 59%


                                                       60 to 69%


                                                       70 to 79%


                                                       80 to 89%


                                                       90 to 99%


                                                             ALL


Source: TIGTA analysis of IRS Master File Data. These data reflect the impact of S corporation
spousal ownership but not majority ownership.




                                                                                                                               5
     Officer Salaries Declared by Single-Shareholder
   S Corporations As a Percentage of Operating Profits
                 (Tax Years 1994 – 2001)


                   PERCENTAGE OF CORPORATE PROFITS DECLARED AS OFFICER SALARIES
                   SUBJECT TO EMPLOYMENT TAXES

   48%

   47%

   46%

   45%

   44%

   43%

   42%

   41%
           94



                       95



                                   96



                                          97



                                                   98



                                                            99



                                                                      00



                                                                               01
         19



                     19



                                 19



                                        19



                                                 19



                                                          19



                                                                    20



                                                                             20
Source: IRS SOI function data.




                                                                                    6
Actual FICA Taxation vs. Theoretical SECA Taxation of S
             Corporations (Tax Year 2000)



                        Social Security Taxes                  Medicare Taxes

       Billions
             $14
             $12
                                                                        $5.3
             $10
              $8
                                     $2.5
              $6
              $4                                                        $8.3
                                     $5.4
              $2
              $0
                     CURRENT FICA TAX PAID ON             SECA TAX IF APPLIED TO
                        OFFICER SALARIES                ACTUAL OPERATING PROFITS




Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of IRS Master File data




                                                                                                     7
